              CLOSEOUT MEMORANDUM FOR M99030017

On 30 March 1999, a program director1 brought an allegation of misconduct in science
to our attention. The program director provided our office with a copy of an unsigned
letter received by a CEO of a small business2 that contained information about the
possible inappropriate use of previously submitted NSF proposals by an unidentified
company. The unidentified company allegedly purchased proposals from NSF reviewers
and used these purchased proposals to develop its own proposals to submit to NSF and
other agencies. Within about a week, our office received similar letters sent to several
other small businesses alleging similar inappropriate use of other scientists' proposals.
Our review determined that at least one NSF award3 to a small business contained text
that was identical to text in an earlier declined NSF proposal submitted by another small
business. The matter is more closely related to civiVcriminal investigations than to
misconduct in science. Consequently, we are closing the misconduct case and opening a
civiVcrimina1 investigation.




cc: Investigations, IG




                                      Page 1 of 1
